No.

In The

Michelle J. Smith
and others,
Petitioners
v.

Nicholas French, Personal
Representative,
Respondent
PROOF OF SERVICE
I, Michelle J. Smith, do swear or declare that on this date, August
28, 2021, as required by Supreme Court Rule 29 I have served the
enclosed PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party's counsel, and on every other person required
to be served, via First Class United States mail prepaid.

The names and addresses of those served are as follows:
Kevin Fall
249 Ralph Talbot St.
Weymouth, MA 02190
kevinfall@icloud.com
William Ameen
32 Burdett Rd.
Brockton, MA 02302
02333
ameenbill@yahoo.com

Janet Lambert
Sharon Hurley
209 Coe Rd.
208 Grove St.
Brockton, MA 02302 Kingston, MA 02364
jmiserable@aol.com dslbhurley@verizon.net
Joseph Kelliher
47 Barry St.
Quincy, MA 02169.

William Kazanek
96 East St.
E. Bridgewater, MA

sixqoinqlonq@comcast.net

wj kas z @msn.com

Kelly Dickerman
111 Partings Way
Kingston, MA 02364
kdickerman@bostonairsystems.com

David Dickerman
111 Partings Way
Kingston, MA 02364
ddickerman@bostonairsystems.com

Ann Pinheiro, Esq.
One State St, Suite 1050
Boston, MA 02109
ann@pinheirolawoffice.com

Sean Reed
132 Old South Rd
Nantucket, MA 02554
bfloblsl@gmail.com

RECEIVED
SEP - 1 2021

1
I declare under penalty of perjury that the foregoing is true and
■correct fo_the best of mv knowledge.

Dated: August 28, 2021
Michelle J.
P.O. Box 42
Kingston, MA 02364
781-422-1045
mjsmith0304@hotmail.com
Pro se Petitioner

